HHS/OIG, Audit - "Medical Assistance Provided by Delaware to Hurricane
Katrina Evacuees," (A-03-07-00201)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medical
Assistance Provided by Delaware to Hurricane Katrina Evacuees," (A-03-07-00201)
February 11, 2008
Complete
Text of Report is available in PDF format (616 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Delaware generally claimed reimbursement for services
provided to Hurricane Katrina evacuees in accordance with its approved section
1115 demonstration project.  Of the $173,436 claimed, $164,145 was allowable.
However, the State claimed a net total of $9,291 in unallowable reimbursement
for three applicants who did not meet the demonstration projects displacement
requirements.  These applicants had identified themselves as from the hurricane
area, but the State had no documentation or verification from the home State
that their displacement status was valid.
We recommended that the State refund the $9,291 in unallowable reimbursement and
revise its Form CMS-64.9 Waiver reports for Louisiana and Mississippi by the
audit adjustment amounts.  The State said that it could not refute the finding
but stood by its eligibility determinations.